BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of Amicus Curiae National Association
of Home Builders of the United States in Support of
Petitioners in 20-426, William L. Huntress and
Acquest Development, LLC v. United States ofAmerica,
were sent via Three Day Service to the U.S. Supreme
Court, and 3 copies were sent via Three Day Service
and e-mail to the following parties listed below, this
2nd day of November, 2020:
John J. Bursch
Bursch Law PLLC
9339 Cherry Valley SE, #78
Caledonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com
Counsel for Petitioners
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Thomas J. Ward
Counsel of Record
Jeffrey B. Augello
National Association of Home Builders of
the United States
1201 15th Street, N.W.
Washington, D.C. 20005
(202) 266-8200
tward@nahb.org
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 2, 2020.

w

t\J

Donna J .
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, Sate of Ohio
My Comnislion Expirt:s
FebrUM" 14, ?023

